U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




       National Oceanic and
  Atmospheric Administration


NOAA’s Management of the Joint
Enforcement Agreement Program
       Needs to Be Strengthened
                    Final Report No. IPE-19050-1
                                 September 2008




                       Office of Audit and Evaluation
                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      Office of Inspector General
                                                      Washington. D.C. 20230




September 30, 2008


MEMORANDUM FOR:              Conrad C. Lautenbacher, Jr.
                             Vice Admiral, U.S. Navy (Ret.)
                             Under Secretary of Commerce
                                for Oceans and Atmosphere

                             James W. Balsiger, Ph.D.
                             Acting Assistant Administrator
                             National Marine Fisheries Service

                             Jane C. Luxton
                             NOAA General Counsel
                             Office of General Counsel

                                b('1l~~r
FROM:                        J uMih J. Gordon
                             Assistant Inspector General
                                for Audit and Evaluation

SUBJECT:                     National Oceanic and Atmospheric Administration:
                             NOAA's Management of the Joint Enforcement
                             Agreement Program Needs to Be Strengthened
                             (Final Report No. IPE-19050-1)


As a follow-up to our August 2008 draft report, we are pleased to provide you with
the final report summarizing the results of our review related to NOAA's
management of the joint enforcement agreement program (JEA). We thank you for
your comments on the draft report and enclose them in their entirety as an
appendix to this report. We made changes to the final report in response to your
comments, where appropriate.

We looked at this program in 2003 1 and identified a number of needed
improvements. In our current review, we revisited the program and noted some
progress in addressing our concerns. However, we found the JEA program remain s
hampered by administrative and operational deficiencies that prevent NOAA from
maximizing the benefits of these partnerships. The report presents several

1 NMFS Should Take a Number of Actions to Strengthen Fisheries Enforcement (Final Report No.
IPE-151541March 2003).
recommendations to strengthen the JEA program. We appreciate your concurrence
with our recommendations. A discussion of your response to our recommendations
follows each relevant section in the report. We request that NOAA provide an action
plan within 60 calendar days that addresses the status of implementing our
recommendations.

If you or your staff have any questions about this final report, please contact me or
Lisa Allen on (202) 482-2754.

cc: 	   Dale Jones, director, office for law enforcement
        Richard Mannix, assistant general counsel for enforcement litigation, NOAA
        Mack Cato, audit liaison, NOAA
U.S. Department of Commerce                                                                                             Final IPE-19050-1
Office of Inspector General                                                                                               September 2008 



INTRODUCTION

OLE relies on the U.S. Coast Guard and                                     Figure 1.      Primary Laws Enforced by
coastal state2 marine enforcement agencies                                                the NMFS Office for Law
                                                                                          Enforcement
for help enforcing federal fisheries
regulations (figure 1) within the 200 miles of                             •    Magnuson-Stevens Fishery
U.S. coastline known as the U.S. Exclusive                                      Conservation and Management Act (16
                                                                                U.S.C. §1801 et seq.)
Economic Zone (EEZ). Its partnership with                                  •    Endangered Species Act (16 U.S.C.
state law enforcement agencies is extended                                      §1531 et seq.)
                                                                           •    Marine Mammal Protection Act (16
under two types of agreements: (1)                                              U.S.C. §1361 et seq.)
cooperative enforcement agreements that                                    •    Lacey Act (16 U.S.C. §3371 et seq.)
deputize state enforcement officials to                                    •    National Marine Sanctuaries Act (16
                                                                                U.S.C. §1431 et seq.)
enforce federal fisheries laws in federal
waters and (2) joint enforcement agreements                                Source: Office for Law Enforcement
(JEAs) that provide a mechanism for
transferring federal dollars to the states to
fund their federal enforcement activities.

Since 2002, OLE has provided over                Figure 2: OLE Funding Levels (2002-2008)
$93 million to 27 U.S. states and
territories in support of federal                                  60

fishery enforcement. In fiscal year                                50
2008, OLE’s budget for the JEA
                                                   M illions ($)




                                                                   40
program totaled $16.2 million, more                                30   26.89             30.81      29.07      33.72     34.30   37.11

than 30 percent of its total budget                                20
(figure 2). Generally, JEA dollars                                              15.46

fund dockside monitoring, at-sea
                                                                   10   17.23             16.50      16.76      15.78     17.53   16.21
                                                                                9.44
patrols, air patrols, equipment,                                   0
                                                                        2002    2003       2004      2005       2006      2007    2008
vessels, outreach, and education.
                                                                                                  Fiscal Year
Some agreements also provide funds
for clerical and investigative support                                                 JEA Program    OLE Base Program

staff.
                                                 Source: NMFS Budget Office

Our 2003 report found, among other
things, that OLE was not making optimum use of the JEA program. In response to
that report, OLE took the following actions to better manage the program:

      (1) Developed a formal approval process for allocating funds to JEA partners
          (2005).
      (2) Mandated that each JEA contain an operations plan outlining specific
          enforcement activities to be performed by the state partner (2005).
      (3) Created and staffed a national cooperative enforcement agreement program
          coordinator position (2006).

2   Our use of the term “state” also includes “territory” and “commonwealth.”


                                                         1

U.S. Department of Commerce                                             Final IPE-19050-1
Office of Inspector General                                               September 2008 



   (4) Initiated a performance review process (2006).
   (5) Issued the Cooperative Enforcement Agreement Program Manual (2006,
       revised 2007).

In our current review, we surveyed 146 (of 149) OLE special agents and officers in
the field to get their perspective on the JEA program and other NOAA fishery
enforcement activities. We used their feedback as a starting point for identifying
and assessing the JEA program’s operational strengths and weaknesses. (See the
appendix for complete details on our objective and methodology.)


FINDINGS AND RECOMMENDATIONS

I. JEA Activities Need to Be More Closely Monitored

Eighty-seven percent of survey respondents indicated that the cooperative
relationships with state partners are benefiting federal fishery enforcement
activities. They noted that having federally deputized state officers on the docks, at
seafood dealers and processors, or patrolling the oceans encourages voluntary
compliance and provides safety backup for OLE officers and agents. At the same
time, many expressed concern that OLE does not hold state partners sufficiently
accountable for their use of federal JEA funds. They commented that OLE’s
enforcement divisions need to exercise greater oversight to monitor state-reported
activities and expenditures and to ensure that these activities met federal fishery
enforcement priorities for the specific region.

In our March 2003 report, we recommended that OLE develop a process through
which its divisions would regularly verify state-reported activities and
expenditures, and institute periodic on-site reviews through which headquarters
would confirm a partner’s accomplishments and internal controls over program
funds. OLE has taken some steps to implement these recommendations: as noted
earlier, it developed a Cooperative Enforcement Program Manual and initiated
performance reviews. But the office has yet to (1) institute an adequate division-
level program that fully and regularly verifies state-reported activities or (2)
conduct headquarters performance reviews of most JEA partners.

A. OLE enforcement divisions need to verify state-reported JEA data

The JEAs require states to submit monthly, quarterly, and annual reports to OLE
summarizing their activities, hours, and costs incurred during the 12-month
agreement period. GAO’s Standards for Internal Control in the Federal Government
discusses a number of internal control mechanisms that agencies should implement
to assure accountability for financial transactions and performance, including
ongoing monitoring and verification of reported data. OLE’s Cooperative



                                           2

U.S. Department of Commerce                                                         Final IPE-19050-1
Office of Inspector General                                                           September 2008 



Enforcement Agreement Program Manual incorporates these standards and requires
its special agents-in-charge to take responsibility for monitoring the overall
performance of JEA partners in their division, including reviewing JEA progress
and analyzing JEA reports.

We found that the division-level review of partners is limited, which supports our
survey respondents’ concerns. OLE’s divisional JEA technicians generally review a
partner’s monthly reports to assess a state’s adherence to its JEA commitments and
operational plan (e.g., Do the hours reported equal the hours required by the JEA?),
and compare annual report information to the monthly summaries to ensure totals
are correct. However, OLE divisions do not systematically verify whether the states
actually conducted the activities they claim.

The various JEA annual reports we reviewed typically stated that work specified in
the partners’ operations plans was performed, man-hour requirements met, and
planned procurements made. But in most cases, OLE could not definitively state
whether or how well the work was actually done, or determine if the purchased item
or service was being used to further federal fisheries enforcement goals.

Most OLE managers we spoke with stated that the divisions lack the resources to
improve monitoring. We understand there are many competing priorities in the
divisions. But five of the six JEA technician positions are fully funded by the JEA
program,3 yet we were told that none of the technicians spends 100 percent of their
time on JEA activities. According to their own estimates, the individual technicians
spend between 30 percent and 75 percent of their time on JEA-related activities. In
addition, every division has at least one special agent (with one division having 10
special agents) charging 50 percent of their time to JEA funds. Because the program
accounts for a substantial portion of OLE’s federal fishery enforcement funding,
OLE should ensure that JEA technicians dedicate 100 percent of their time to it.
Additionally, OLE special agents-in-charge should assiduously verify partner
activities on a regular basis in order to tie program funding decisions to partner
performance and thereby optimally leverage the states’ enforcement capabilities.

B. Headquarters reviews need quicker turnaround to maximize their
impact

OLE’s Cooperative Enforcement Agreement Program Manual requires periodic
reviews of partners’ performance “to ensure that the [JEA program] meets the
needs of the OLE mission, doesn’t unduly burden State resources and efforts, and
provides a valuable supplement to OLE’s personnel.” OLE headquarters initiated



3
  One technician position is currently vacant but will be funded 100 percent by the JEA program when
filled. The remaining technician position is only funded 25 percent with JEA program dollars.


                                                 3

U.S. Department of Commerce                                           Final IPE-19050-1
Office of Inspector General                                             September 2008 



these independent reviews in September 2006 and to date has reviewed 10 of the 27
states (37 percent) receiving JEA funds.

Of the 10 reviews completed, OLE has reported its findings to only 6 partners (table
1). The remaining 4 were completed in July and August 2007, but the results have
not yet been reported to the applicable state partner. In trying to determine when
these reports should have been issued, we found that OLE has no set time frame for
reporting its results to the JEA partner on completion of the review. Partners need
to receive this information in a timely manner so they can take prompt action to
improve or change their activities as necessary and maximize the effectiveness of
their enforcement support.


Table 1: Headquarters Performance Reviews of JEA Partners
     State or Territory           Date of Review          Date of Report
          California              September 2006           March 2007
        Massachusetts             November 2006           February 2007
          Louisiana                 March 2007              June 2007
           Georgia                  April 2007              May 2008
          Maryland                  June 2007               May 2008
           Alaska                    July 2007               Pending
       American Samoa              August 2007               Pending
            Guam                   August 2007               Pending
  Northern Mariana Islands         August 2007               Pending
            Texas                   March 2008              July 2008
Source: OLE

OLE’s coordinator for the cooperative enforcement agreement program partially
attributed the delays to the difficulty headquarters had in getting sufficient
documentation on completed JEA activities from the states. In addition, we were
told that the delays are the result of a resource issue: headquarters has just one
staff person dedicated to coordinating the JEA program, which includes conducting
the performance reviews and drafting the reports. Officials indicated they plan to
fill a second full-time position to assist with this effort.

Headquarters’ performance reviews are a valuable mechanism for assessing the
JEA program over the long term, validating reported data, adjusting ongoing
monitoring efforts, and ultimately ensuring consistent and effective enforcement
among the states. To reap these benefits, OLE needs a strategy for reviewing all
partner programs that prioritizes the order in which it assesses them, verifies and
evaluates a program’s internal controls and accomplishments, and reports results to
state JEA officials in a timely manner.




                                         4

U.S. Department of Commerce                                               Final IPE-19050-1
Office of Inspector General                                                 September 2008 




Recommendations

The National Marine Fisheries Service should:

(1) Ensure that JEA technicians dedicate 100 percent of their time to the JEA
program.

(2) Require OLE’s special agents-in-charge to continually verify state-reported
activities and expenditures.

(3) Develop a strategy for reviewing partner programs that prioritizes the order in
which to assess them, verifies and evaluates a program’s internal controls and
accomplishments, and reports results to JEA officials in a timely manner.

Unit Response and OIG Comments


In its response to our draft report, NOAA concurred with all three of our
recommendations. Specifically, the response stated that the Director of OLE will
instruct each special agent-in-charge to restructure assigned work so that JEA
technicians are dedicated to work that is JEA mission-related and that strengthens
support for the JEA program. In addition, the response stated that the Director of
OLE will confer with OLE ’s national leadership team to develop and implement an
effective and comprehensive monitoring and reporting process that is specifically
designed to assure that the special agents-in-charge are engaged, and are verifying
and aware of state activities and expenditures in accordance with each state
agreement. NOAA’s response also stated that OLE will develop a specific set of
criteria that will be applied to (1) prioritize the recommended assessments of the
individual state partnerships within their respective divisions and nationally and
(2) verify and evaluate the implementation of internal controls. Finally, the
response stated that OLE’s headquarters management team will be integrated with
the divisions during assessments and OLE will ensure results are reported to JEA
officials in a timely manner. Once implemented, NOAA’s actions will meet the
intent of our recommendations.

II. Use of Summary Settlements Is Limited and Loosely Managed

The summary settlement system was designed to process minor federal fishery
violations efficiently by allowing enforcement officials in the field to issue tickets on
the spot. A summary settlement gives violators the opportunity to pay a reduced
penalty within a specified time period, in lieu of contesting an alleged violation and
possibly going to court. If the party chooses not to pay the fine, the case is forwarded
for prosecution to NOAA's Office of General Counsel for Enforcement and Litigation
(GCEL). Because summary settlements are a type of civil penalty, law enforcement


                                           5

U.S. Department of Commerce                                               Final IPE-19050-1
Office of Inspector General                                                 September 2008 



entities must receive authority to use them from GCEL. It is GCEL’s position that it
is the only NOAA organization that can delegate summary settlement authority to
state JEA partners.

We found that very few states have authority to use summary settlements and that
GCEL has loosely managed the process for delegating authority to JEA partners
because it lacks policies and procedures governing how partners should use the
system. We also noted a consequent miscommunication among GCEL, OLE, and the
JEA partners regarding entitlement to use the system.

A. GCEL should extend summary settlement authority to more states

Only 3 of the 27 JEA partner states have authority to issue summary settlements.
We found that some GCEL attorneys are resistant to extending this authority to
more partners because they are concerned their caseloads will increase because of
an influx of unpaid or appealed tickets requiring litigation. Based on the data we
collected during the review and supplemented by NOAA at the exit conference, the
percentage of unpaid summary settlement tickets averages between 10 to 15
percent, although one GCEL region reported a 100 percent pay rate by its state
partner. However, GCEL has not conducted any type of assessment to determine
why some regions have better pay rates than others (e.g., are state partners better
trained on federal fishery laws and regulations in some regions versus others) or if
the type of tickets being written are appropriate (e.g.., did the state partner use
good judgment in writing the ticket).

Beyond the workload concern, GCEL officials contended that states do not need this
authority because the JEA program encourages them to adopt relevant federal
fishery regulations as state statutes, in which case they can prosecute the same
kinds of violations in state courts and relieve the federal government from pursuing
them. However, GCEL was unable to tell us how many states have actually
incorporated federal fishery regulations into their own statutes. But as a result of
our inquiries, it surveyed its state partners to find out. At this writing, GCEL is still
reviewing the survey responses. Its initial findings suggest that, among the 17
states that responded to the survey, some have partially incorporated the locally
relevant federal fishery regulations into their legal codes, but none have
incorporated all relevant regulations.

Many federal and state law enforcement officials with whom we spoke felt that
summary settlements offer an immediate sanction that may deter future violations.
Two state partners told us that their officers used summary settlement offers to
ticket offending vessels from neighboring states in the EEZ, an option generally not
available under state law. GCEL officials also acknowledged that some state
partners may benefit from receiving new or expanded summary settlement



                                           6

U.S. Department of Commerce                                                                      Final IPE-19050-1
Office of Inspector General                                                                        September 2008 



authority which in turn can benefit NOAA. We agree. Specifically, this will allow
OLE and GCEL to focus resources on more complex cases.

OLE indicated to us that it plans to collaborate with GCEL and JEA partners to
determine the most strategic use of summary settlement authority. We support
such an effort, and suggest that OLE and GCEL develop specific criteria or
guidelines for determining where and how the summary settlement system should
be used by JEA partners. GCEL’s survey data should help with this initiative by
identifying those regulations for which delegated summary settlement authority
would enhance partners’ enforcement efforts.

B. GCEL needs written policies and procedures for making and managing
delegations of summary settlement authority

We found that at least five states had been incorrectly told by OLE that they had
summary settlement authority. OLE mistakenly believed that GCEL’s delegation of
authority automatically applied to JEA partners via their deputization to enforce
federal fishery laws and regulations. During our review, GCEL instructed OLE to
advise the states to stop issuing summary settlements because they had not been
delegated this authority. GCEL subsequently provided two of these states with
limited summary settlement authority, bringing the current total of JEA partners
with this authority to three.4

Two of these JEA partners told us the revocation was not handled formally or at the
right level. In the northeast region, OLE provided this direction via electronic mail
at the state director level. However, one senior state law enforcement official in the
northwest region told us that he first heard of the revocation from one of his state
law enforcement officers—not from GCEL or OLE.

For the three states that did receive delegation of authority from GCEL, we found
very limited documentation supporting the authorizations: there is some electronic
mail traffic between GCEL and OLE and OLE (at the assistant special agent-in
charge level) and state partners related to two delegations, but no documentation
for the remaining one.

These actions demonstrate the need for guidelines and processes for summary
settlement authority, including, at a minimum, written notifications of delegations
or revocations of authority.




4
 One state is authorized to issue summary settlements for marine sanctuary-related violations and two states are
authorized to issue them for striped bass violations.


                                                         7

U.S. Department of Commerce                                         Final IPE-19050-1
Office of Inspector General                                           September 2008 




Recommendations

NOAA Office of the General Counsel should:

(1) Ensure GCEL works with OLE to establish criteria or guidelines to determine
where and how the summary settlement system should be used by JEA partners to
have the greatest enforcement impact.

(2) Ensure GCEL establishes national policies and procedures for making and
managing delegations of summary settlement authority, including requirements for
maintaining written documentation of delegation decisions and providing written
notification of these decisions to JEA partners.

Unit Response and OIG Comments
In its response to our draft report, NOAA concurred with both recommendations.
Specifically, the response stated that OLE and GCEL will work together to develop
national criteria for use of summary settlements and protocols for their
implementation by the states. The response further stated that OLE and GCEL will
work together to establish (1) written national policies and procedures for making
delegations of summary settlement authority and (2) a process to review each
summary settlement that has been issued to ensure appropriate application as well
as compliance with policies, procedures, and training. Once implemented, these
actions will meet the intent of our recommendations.




                                        8

U.S. Department of Commerce                                               Final IPE-19050-1
Office of Inspector General                                                 September 2008 



       APPENDIX A: BACKGROUND, OBJECTIVE, SCOPE, AND METHODOLOGY

The National Marine Fisheries Service’s Office for Law Enforcement enforces laws
that protect and regulate our nation’s living marine resources and their natural
habitats. Most of its enforcement work focuses on the protection of the nation’s
fisheries and compliance with fishing regulations, but OLE has authority to enforce
over 37 statutes as well as numerous treaties related to the conservation and
protection of marine resources. In addition to OLE headquarters in Silver Spring,
Maryland, there are six divisions consisting of 53 field offices. OLE’s staff consists of
131 special agents, 19 enforcement officers, and 63 technical and support personnel
and program analysts.

As part of our ongoing review of select NOAA fishery enforcement activities, we
assessed OLE’s efforts to target living marine resource violations through its JEA
program, focusing on our 2003 fishery enforcement report recommendations related
to this program (IPE-15154).

To accomplish our objective we did the following:

 • Interviews
         o	 	 Within NMFS we spoke with the acting assistant administrator;
              several regional administrators and managers; the chief of budget,
              planning, formulation and evaluation; and the director and deputy
              director of OLE.
         o	 	 Within OLE we met with the two assistant directors; the special agent
              responsible for the cooperative enforcement program; all six special
              agents-in-charge and JEA technicians; numerous OLE agents and
              officers; and enforcement analysts and technicians.
         o	 	 Within NOAA we spoke with the assistant general counsel and deputy
              assistant general counsel for enforcement and litigation, and all of the
              regional enforcement attorneys.
         o	 	 Externally, we spoke with 12 of the 27 JEA partners; representatives
              from the Atlantic and Pacific States Marine Fisheries Commissions;
              and representatives from the fishery management councils’ law
              enforcement committees and advisory groups.

 • E-mail survey. We prepared and sent an electronic survey to 146 OLE agents
   and officers (excluding senior headquarters managers) regarding NOAA’s fishery
   enforcement efforts (85 percent responded).

 • OLE site visits. In addition to our work at NOAA headquarters, we visited 

   three of the six OLE divisions: Alaska, Northeast, and Southeast. 





                                           9

U.S. Department of Commerce                                             Final IPE-19050-1
Office of Inspector General                                               September 2008 



 • Review of relevant laws, regulations, procedures, and other documents.
   We examined the following materials:

           o	 	 Enforcement provisions for the five primary laws that OLE enforces
                (see figure 1, page 2).
           o	 	 Existing OLE and GCEL policy and planning materials related to the
                JEA program, including the Cooperative Enforcement Agreement
                Manual.
           o	 	 The 12 JEAs and operations plans associated with the states we
                contacted during our review, all available annual reports for 2006 and
                2007 submitted by the state partners, and the six JEA performance
                reviews OLE has completed since 2006.
           o	 	 External evaluations of federal fishery enforcement efforts conducted
                by the National Academy of Public Administration, the U.S. Coast
                Guard, and others.

We conducted our review from February through July 2008 under the authority of
the Inspector General Act of 1978, Department Organization Order 10-13, and
Department Administrative Order 213-2, and in accordance with the Quality
Standards for Inspections (President's Council on Integrity and Efficiency, rev.
January 2005).




                                           10 

U.S. Department of Commerce                                                                                     Final IPE-19050-1
Office of Inspector General                                                                                       September 2008 



                                 APPENDIX B: AGENCY RESPONSE 





                                                           UNITIlD STA~ D • .,AATM.NT OP COM• •IIC.
                                                           N ......... Oc:• ...-c- .ad AtnIo.--....c . . . .Ial....atton
                                                           CHIEF ADMINISTRATIVE OFFICER




            September 26, 2008


            MEMORANDUM FOR:               Judith J. Gordon
                                          Assistant Inspector General
                                            ~d~it and Evaluation

            FROM:                        /'J~           ,;r~r'
                                         ~illiam F. Broglie -,
                                          Chief Administrative fficer

            SUBJECI':                     National Oceanic and Atmosph£ric Administration.-
                                          NOAA's Management o/the Joint Enforcement
                                          Agreement Program Needs to Be Strengthened
                                          Draft Report No. IPE-I9050-l/August 2008

            Attached is the National Oceanic and Atmospheric Administration's response to the Office of
            Inspector General's draft report on the National Marine Fisheries Service/Office of Law
            Enforcement's efforts to target living marine resource violations through the joint enforcement
            agreement program. Because the OIG draft report was issued prior to the eJtit conference, our
            staff provided additional documentation at the exit conference to help clarify certain points. The
            references to information previously provided to the DIG in the "Recommended Changes to
            Factuallfechnicallnformation" ponion of the attached response refer to information provided
            after the DIG's draft report had already been issued. I am hopeful the information provided will
            be reflected in the final report. Please let me know if there are questions or concerns regarding
            the comments provided.

            The response wa~ prepared in accordance with Department Administrative Order 213-3,
            Inspector General Auditing. We appreciate the opportunity to respond to your draft report.

            Attachment




                                                             11 

U.S. Department of Commerce                                                                               Final IPE-19050-1
Office of Inspector General                                                                                 September 2008 





                                          Department of Commerce
                             NOAA Comments on the Draft OIG Report Entitled
                "National Oceanic and Atmospheric Administration: NOAA's Management of the
                      Joint Enforcement Agreement Program Needs to Be Strengthened"
                              (Draft Audit Report No. IPE-I90S0-IIAugust 2008)


            General Comments

            The National Oceanic and Atmospheric Administration (NOAA) appreciates the efforts the
            Office of Inspector General (OIG) has put into preparing this report. NOAA's National Marine
            Fisheries Service (NMFS) and General Counsel for Enforcement Litigation (GCEL) will work
            together to address the recommendations that have been made. As the report suggests, the Joint
            Enforcement Agreement (JEA) program is a valuable and productive program. NMFS's Office
            of Law Enforcement (OLE) and the GCEL have worked to build the program and to improve
            both its management and effectiveness since its inception. The OIG reconunendations and the
            perspective provided in this report will assist the OLE and GCEL in further improving the
            program.

            The OIG findings and recommendations regarding past, ongoing and future use of summary
            settlements by our state partners are also helpfuL Summary settlements are designed to address
            minor violations. However, extensive delegation of summary settlement authority may
            potentially generate significant and somewhat uncontrolled work load for NOAA attorneys.
            Given this. GCEL has been judicious in delegating summary settlement authority to the states to
            ensW'C that enforcement resources are not inappropriately diverted from major cases of a much
            higher priority. Where applicable, the OLE and GCEL plan to utilize the information contained
            within the final report to develop a more formal policy on the use ofsununary settlements. We
            anticipate such a policy will help further NOAA's enforcement mission and ensure a controlled
            and monitored approach to whether and how best to extend and manage the use of summary
            settlements.


            Recommended Changes to FattuallTechnical Information

            Page 5. last paragraph:
            The GIG indicates GCEL has no data to support its concern that caseloads will increase because
            of an influx ofunpaid or appealed tickets requiring litigation.

            We recommend deletion of this sentence, Data supporting this concern have been provided to
            the OIG. It shows that 10% to 15% ofswnrnary settlements issued go unpaid. Aslldted above.
            if the number of enforcement personnel authorized to issue summary settlements increases, it is
            reasonable to assume that there will be a proportionate increase in the number ofunpaid tickets.

            Page 6. last paragraph:
            The OIG indicates at least five other states were incorrectly told by OLE that they had summary
            settlement authority and that the office does not know the extent to which these five states
            actually used the system.




                                                           12 

U.S. Department of Commerce                                                                                Final IPE-19050-1
Office of Inspector General                                                                                  September 2008 





            We recommend that this sentence be modified to reflect information that has been provided to
            the DIG. That information shows that three individual agents in Washington State had issued 23
            summary settlements during 2006·2007. all of which were paid. New Jersey, Delaware,
            Maryland and Virginia had together issued 114 unauthorized summary settlements during 2006-
            2007. Eighty-six percent of these were paid and 14% were unpaid and were referred to GCEL
            for prosecution. Oregon, New York, Maine. New Hampshire, Massachusetts. Rhode Island and
            Connecticut all chose not to issue summary settlements. aJthough their agents thought they had
            the authority to do so in 2006-2007.

            Page 7, first full paragraph:
            The OlG indicates "GCEL instructed OLE to 'revoke' the authority, aod several of these lEA
            partners told us the revocation was not handled formally or at the right leveL"

            We recommend that this sentence be modified to reflect information that has been provided to
            the DIG. The term ''revoke'' incorrectly suggests that the states had been properly delegated
            authority. We suggest that the sentence be revised to state that aCEL instructed OLE to advise
            the states to stop issuing summary settlements because the states had not been delegated that
            authority. OLE provided that direction to New Jersey, Delaware, Maryland. Virginia,
            New York, Maine, New Hampshire, Massachusetts, Rhode Island, and Connecticut in writing
            (via electronic mail) at the state Director level.

            In Washington State, three individual state agents were told they could issue summary
            settlements. When the Northwest Special Agent in Charge (SAC) learned of this
            communication, the SAC directed that OLE agent to tell the state agents that they did not have
            such authority. This latter communication was made at the same level of the original
            communication-the level of agent.

            Page 7, secondfull paragraph:
            "For the three states that did receive delegation of authority from GCEL ... In all three cases.
            the states received only verbal notification of the delegation from either GCEL or OLE."

            We recommend that this sentence be modified to reflect infonnation that has been provided to
            the DIG. The delegation of authority to Florida was made in the early 19905 by the Southeast
            regional office. At the time, enforcement was managed within each region and not from
            headquarters. Available documents suggest that the delegation was made and revised in writing.

            Delegations of limited authority to Maryland and Virginia to issue Sl.mllD.ary settlements for
            striped bass in the U.S. Exclusive Economic Zone were made in writing in 2008. These were
            transmitted by electronic mail to appropriate management officials, including the Northeast SAC
            and Deputy SAC. The delegation was then transmitted to the state-provided JEA C);)6tact persons
            who acknowledged receipt of the authorization.




                                                             2




                                                            13 

U.S. Department of Commerce                                                                                 Final IPE-19050-1
Office of Inspector General                                                                                   September 2008 





            NOAA Response to OIG Recommendations

            Recommendation 1: The National Marine Fisheries Service should ensure that JEA
            coordinators dedicate 100 percent of their time to the JEA program.

            NOAA Response: We concur. The Director will instruct each SAC to rest:ro.etme assigned
            work so that lEA Technicians (refernd to by lbe OIG as JEA coordinators) are dedicated to
            work that is lEA mission related and that strengthens support for the JEA program.

            Recommendation 2: The National Marine Fisheries Service should require OLE's special
            agents-in-charge to continually verify state-reported activities and expenditures.

            NOAA Response: We concur. The Director will confer with the OLE's Nationa~              ~rship
                                                                                               J-A,O.....

            Team to develop and implement an effective and comprehensive monitoring and reporting
            process that is specifically designed to assure that SACs are engaged, verifying and aware of
            state activities and expenditures in accordance with each state agreement

            Recommendation 3: The National Marine Fisheries Service should develop a strategy for
            reviewing partner programs that prioritizes the order in which to assess them, verifies and
            evaluates a program's internal controls and accomplishments, and reports results to lEA officials
            in a timely manner.

            NOAA Response: We concur. The OLE will develop a specific set of criteria that will be
            applied (I) to prioritize the recommended assessments of the individual state partnerships within
            their respective Divisions and nationally-and (2) to verify and evaluate the implementation of
            internal controls. In addition, the OLE HQ management team will be integrated with the
            Divisions during assessmenls and the OLE will ensure results are reponed to JEA officials in a
            timely manner.

            Recommendation 4: NOAA Office of lbe General Counsel should ensure GCEL works with
            OLE to establish criteria or guidelines to determine where and how the summary settlement
            system should be used by lEA partners to have the greatest enforcement impact.

            NOAA Response: We coo.ur. OLE and GCEL will work togelber to develop national criteria
            for use of the summary settlements and protocols for their implementation by the states.

            Recommendation 5: NOAA Office of the General Counsel should ensure GCEL establishes
            national policies and procedures for maJdng and managing delegations of summary setUement
            authority. including requirements for maintaining written documentation of delegation
            decisions and providing written notification of these decisions to JEA partners. "',

            NOAA Response: We concur. OLE and GCEL will work together to establish writleo national
            policies and procedures for making delegations of swnmary settlement authority. OLE qpd
            GCEL will work together to establish a process to review each summary settlement that lils been
            issued to ensure appropriate application as well as compliance with policies. procedures and
            training.




                                                            3




                                                           14 

